No. 19-792

Vugo, Inc., v.
City of New York

CERTIFICATE OF
COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus
Curiae of Pacific Legal Foundation in Support of Petitioner contains 3,845 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Dal Oar

DANIEL M. ORTNER*
*Counsel of Record
DEBORAH J. LA FETRA
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
(916) 419-7111
DOrtner@pacificlegal.org

Executed on January 17, 2020.
